   May 6, 2005




Defense Infrastructure
Defense Contract Management
Agency Data Call Submissions and
Internal Control Processes for Base
Realignment and Closure 2005
(D-2005-064)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
 Additional Copies

 To obtain additional copies of this report, contact the Secondary Reports
 Distribution Unit, Audit Followup and Technical Support at (703) 604-8937
 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact Audit Followup and
 Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
 Ideas and requests can also be mailed to:

                  ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704




Acronyms
BRAC                 Base Realignment and Closure
CMO                  Contract Management Office
COBRA                Cost of Base Realignment Actions
DCMA                 Defense Contract Management Agency
DCT                  Data Collection Tool
DoD OIG              Department of Defense Office of Inspector General
HSA                  Headquarters and Support Activities
ICP                  Internal Control Plan
JCSG                 Joint Cross Service Group
JPAT 7               Joint Process Action Team Criterion Number 7
OSD                  Office of Secretary of the Defense
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON. VIRGINIA 222024704




                                                                             May 6,2005
MEMORANDUM FOR COMMANDER, DEFENSE CONTRACT MANAGEMENT
                 AGENCY
SUBJECT: Report on Defense Contract Management Agency Data Call Submissions and
         Internal Control Processes for Base Realignment and Closure 2005 (Report
         NO.D2005-064)

        We are providing this report for information and use. No written response to this
report was required, and none was received. Therefore, we are publishing this report in
final form. We performed the audit in response to a request from the Under Secretary of
Defense for Acquisition, Technology, and Logistics.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah Culp at (703) 604-9335 @SN 664-9335) or Ms. Bobbie Sau Wan at
(703) 604-9259 (DSN 664-9259). See Appendix E for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                               Director
                                         Contract Management
                                                            -
               Department of Defense Office of Inspector General
Report No. D2005-064                                                         May 6, 2005
   (Project No. D2004-D000CG-0065.000)

              Defense Contract Management Agency Data Call
                Submissions and Internal Control Processes
                  for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls, and the Defense Contract
Management Agency management personnel should read this report. The report
discusses the adequacy, completeness, and integrity of the data provided by Defense
Contract Management Agency to assist the Secretary of Defense in BRAC 2005
recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, that states the Department of Defense
Office of Inspector General review the accuracy of BRAC data and the certification
process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls–capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of
Base Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls
were collectively known as the second data call. We issued 30 site memorandums for the
capacity analysis data call and 26 site memorandums for the second data call. In
addition, we reviewed one scenario specific data call. This report summarizes issues
related to the Defense Contract Management Agency BRAC 2005 process for sites
visited and applicable tertiary offices as of January 14, 2005.

Defense Contract Management Agency. With Headquarters at Alexandria, Virginia,
the Defense Contract Management Agency provides “Customer Focused Acquisition Life
Cycle and Combat Support to Ensure Warfighter Readiness” worldwide. The Defense
Contract Management Agency performs operational management on a regional basis
with three district offices at: Defense Contract Management Agency International,
Alexandria, Virginia; Defense Contract Management Agency East, Boston,
Massachusetts; and
Defense Contract Management Agency West, Carson, California. Currently, the three
Defense Contract Management Agency District offices are composed of 125 Contract
Management Offices.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense and
Defense Contract Management Agency internal control plans at 29 sites for the capacity
analysis data call, 26 sites for the second data call, and 1 site for the scenario specific
data call. (See Appendixes B and C for a list of sites visited.) After our review, Defense
Contract Management Agency BRAC 2005 data for the sites visited were generally
supported, complete, and reasonable. However, 5 questions for the capacity analysis data
call and 52 questions for the second data call remain unsupported. Subsequent to our site
visits, changes could have been made to the Joint Process Action Team Criterion
Number 7 data and were not verified. Despite these problems, we consider the data,
responses, and sources to be generally reliable for use in the BRAC 2005 process.

In addition, the data collection processes for the sites visited generally complied with
applicable internal control plans. The Defense Contract Management Agency Internal
Control Plan properly incorporated and supplemented the Office of the Secretary of
Defense Internal Control Plan. However, two of the sites visited during the audit did not
fully comply with the Defense Contract Management Agency Internal Control Plan.
Both sites were taking actions to correct the noncompliances with the Defense Contract
Management Agency Internal Control Plan. These noncompliance issues will not affect
the integrity of the BRAC 2005 process.

Management Comments. We provided a draft of this report on April 15, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                              i

Background                                                    1

Objectives                                                    3

Finding
     Defense Contract Management Agency BRAC 2005 Data Call
        Submissions and Internal Control Processes            4

Appendixes
     A. Scope and Methodology                                  9
        Management Control Program Review                     12
     B. Capacity Analysis Data Call Questions Reviewed        13
     C. Second Data Call Questions Reviewed                   29
     D. Prior Coverage                                        42
     E. Report Distribution                                   49
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the Base Realignment and Closure (BRAC) 2005
    deliberative bodies responsible for leadership, direction, and guidance. The
    Secretary of Defense must submit recommendations to the independent
    Commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. Office of the Secretary of Defense (OSD) established seven Joint
    Cross Service Groups (JCSG)–Education and Training, Headquarters and Support
    Activities (HSA), Industrial, Intelligence, Medical, Supply and Storage, and
    Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that they
    reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls–
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), and Joint Process Action Team Criterion
    Number 7 (JPAT 7), and scenario specific. The supplemental capacity, military
    value, COBRA, and JPAT 7 data calls were collectively known as the second data
    call. The Services, Defense agencies, and Defense-Wide Organizations used
    either automated data collection tools or a manual process to collect data call
    responses. Each data call had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered with the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.

                                         1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           Internal Control Plans. Before the BRAC data calls were released to the
           Services, Defense agencies, and Defense-Wide Organizations, OSD required the
           Services, Defense agencies, and Defense-Wide Organizations to prepare internal
           control plans (ICP) that incorporated and supplemented the OSD ICP. The OSD
           ICP was issued in the Under Secretary of Defense for Acquisition, Technology,
           and Logistics’ memorandum, “Transformation Through Base Realignment and
           Closure (BRAC 2005) Policy Memorandum One—Policy, Responsibilities, and
           Procedures,” April 16, 2003. To comply with that requirement, the Defense
           Contract Management Agency (DCMA) prepared “DCMA 2005 BRAC Internal
           Control Plan,” on December 8, 2003, and then updated the plan on June 7, 2004.
           For the capacity analysis data call and for the second data call, DCMA used a
           modified version of the Army Online Data Collection Tool (DCT), a data
           collection tool developed for the Army Basing Study Group to collect BRAC
           data.

           Department of Defense Office of Inspector General Responsibility. The
           “Transformation Through Base Realignment and Closure (BRAC 2005) Policy
           Memorandum One—Policy, Responsibilities, and Procedures,” April 16, 2003,
           requires the Department of Defense Office of Inspector General (DoD OIG) to
           provide ICP development and implementation advice, review the accuracy of
           BRAC data, and evaluate the data certification processes. In addition, the
           memorandum requires DoD OIG personnel to assist the JCSGs and DoD
           Components as needed. This resulting report summarizes issues related to the
           DCMA BRAC 2005 process.

           DCMA. With Headquarters at Alexandria, Virginia, DCMA provides “Customer
           Focused Acquisition Life Cycle and Combat Support to Ensure Warfighter
           Readiness” worldwide. DCMA performs operational management on a regional
           basis with three district offices at: DCMA International, Alexandria, Virginia;
           DCMA East, Boston, Massachusetts; and DCMA West, Carson, California.
           Currently, the 3 DCMA District offices are composed of 125 Contract
           Management Offices (CMO). During the data validation period, DCMA reduced
           the number of CMOs from 129 to 125. Of the 125 current CMOs, 78 are tertiary
           offices that report up to the remaining 47 CMOs. See Appendixes B and C for a
           list of sites visited and question numbers reviewed for each data call.




1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.
                                                        2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that DCMA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether DCMA complied with
    the OSD and DCMA ICPs. This report is one in a series on data call submissions
    and internal control processes for BRAC 2005. See Appendix A for a discussion
    of the audit scope and methodology and our review of the management control
    programs related to the objectives. See Appendix D for prior coverage.




                                       3
           Defense Contract Management Agency
           BRAC 2005 Data Call Submissions and
           Internal Control Processes
           After our review, the responses provided by DCMA sites visited for the
           BRAC 2005 data calls were generally supported, complete, and
           reasonable. However, DCMA did not adequately support all responses
           submitted to OSD.

              •   Five capacity analysis data call question responses at two Contract
                  Management Office locations remain unsupported.

              •   Fifty-two second data call question responses at nine Contract
                  Management Office locations remain unsupported.
           In addition, the DCMA sites visited generally complied with the ICPs, and
           the DCMA ICPs properly incorporated and supplemented the OSD ICP.
           However, two of the sites visited did not fully comply with the DCMA
           ICP. These issues are considered immaterial and should not impact the
           reliability or integrity of the DCMA data for use in BRAC 2005 analysis.


DCMA BRAC 2005 Data Call Submissions
    After our review, the BRAC 2005 data call responses provided by DCMA for the
    sites visited and the tertiary offices were generally supported, complete, and
    accurate. For each site, DCMA Headquarters targeted specific questions, and we
    evaluated the validity, integrity, and supporting documentation of the DCMA
    targeted questions. Specifically, we compared question responses to supporting
    documentation and reviewed “Not Applicable” question responses to determine
    whether the responses were reasonable and not default “Not Applicable”
    responses. We did not verify that the responses made it into the OSD Database.

    Capacity Analysis Data Call. After our review, DCMA sites visited for the
    capacity analysis data call provided accurate and reasonable question responses,
    and adequate support for both answered and “Not Applicable” responses. For the
    capacity analysis data call, DCMA Headquarters received 753 questions from the
    OSD BRAC Office. DCMA established a data control board to determine the
    applicability of questions to DCMA. The DCMA BRAC 2005 Data Control
    Board (Data Control Board) reviewed the questions received and targeted
    questions to DCMA Headquarters, 3 district offices in the United States,
    44 CMOs, and 65 tertiary offices located in the United States. We evaluated the
    question responses and support at 29 locations visited in the United States (see
    Appendixes B and C for a list of sites visited and questions reviewed). We
    reviewed the responses of the 55 tertiary offices, subordinate to the 25 CMO
    locations visited, at the CMO level. In addition, we also reviewed the
    reasonableness and support for “Not Applicable” responses to ensure the response
    submitted was not an erroneous default. At the sites, we identified question
                                       4
         responses with inadequate support and inaccurate responses. However, as a result
         of our site visits, DCMA sites revised responses and provided supporting
         documentation to correct the issues. We verified and concurred with the majority
         of changes. A small number of questions at DCMA Boston, DCMA Manchester,
         and DCMA Los Angeles 2 remain as outstanding issues. DCMA Boston question
         number 301, DCMA Manchester question numbers 301 and 311, and DCMA Los
         Angeles question numbers 311 and 691 are still considered unsupported. These
         issues are considered immaterial and will not affect the reliability of the DCMA
         BRAC 2005 data.

         Second Data Call. After our review, the DCMA sites visited for the second data
         call generally provided complete, accurate, and reasonable question responses
         with adequate supporting documentation for both answered and “Not Applicable”
         responses. The second data call questions were targeted to DCMA. The Data
         Control Board reviewed the applicability of the questions and further targeted
         questions to DCMA Headquarters; the 3 district offices (DCMA International,
         DCMA East, DCMA West); 44 CMOs; and 64 tertiary offices located in the
         United States. We evaluated the responses and support at DCMA Headquarters,
         the 3 district offices, 22 CMOs, and 47 tertiary offices (see Appendixes B and C
         for a list of sites visited and questions reviewed). We reviewed the responses of
         the tertiary offices, subordinate to the 22 CMO locations visited, at the CMO
         level. Furthermore, we evaluated the “Not Applicable” responses for
         reasonableness and support to ensure responses submitted were not erroneous
         default responses. At the sites, we identified question responses with inadequate
         support and inaccurate responses.

         As a result of our site visits, some responses were revised and supporting
         documentation was provided to correct the issues. We verified and concurred
         with most of the changes. The following question numbers are still considered
         unsupported:

             •   DCMA Headquarters JPAT 7 question numbers 1400, 1401, 1413, and
                 1414; and HSA JCSG military value question numbers 1905, 1914, and
                 1916;

             •   DCMA Boston HSA JCSG military value question number 1914;

             •   DCMA Manchester JPAT 7 question number 1407;

             •   DCMA Dallas JPAT 7 question number 1407;

             •   DCMA Denver JPAT 7 question numbers 1406, 1407, and HSA JSCG
                 military value question number 1912;

             •   DCMA Salt Lake City JPAT 7 question numbers 1406, 1407, and HSA
                 JCSG military value question number 1912;



2
    DCMA Los Angeles was formerly called DCMA Van Nuys.
                                              5
               •    DCMA Los Angeles JPAT 7 question numbers 1400, 1401, 1405, 1406,
                    and 1410;

               •    DCMA Phoenix JPAT 7 question numbers 1400, 1407, and COBRA
                    question number 1505;

               •    DCMA San Antonio JPAT 7 question numbers 1405 through 1407 and
                    COBRA question number 1505;

               •    DCMA Santa Ana JPAT 7 question numbers 1400, 1405 through 1407,
                    1414, and COBRA question number 1505;

               •    DCMA Irvine JPAT 7 question numbers 1400, 1405 through 1407, 1414,
                    and COBRA question number 1505;

               •    DCMA Norwalk JPAT 7 question numbers 1400, 1405 through 1407,
                    1414, and COBRA question number 1501;

               •    DCMA Ontario JPAT 7 question numbers 1400, 1405 through 1407, and
                    1414; and

               •    DCMA Virginia JPAT 7 question number 1407.

           We did not make a determination as to whether the support was reasonable or
           accurate for HSA JCSG military value question numbers 1907 3 and 1908 4
           because we were unable to validate the steps taken to generate the response.
           Also, the JPAT 7 group replaced question numbers 1418 and 1419 with question
           numbers 1420 and 1421 subsequent to some of our site visits. Furthermore, the
           JPAT 7 group requested changes to DCMA data subsequent to our site visits.

           Changes made after January 14, 2005, were not verified by the DoD OIG audit
           teams. These issues are considered immaterial and will not affect the reliability
           of the DCMA BRAC 2005 data.

           Scenario Specific Data Call. DCMA Headquarters provided reasonable question
           responses and adequate support for the scenario data call. We evaluated the
           responses and support at DCMA Headquarters. DCMA Headquarters was asked
           to verify personnel and leased space information for only the HSA-0067 scenario
           specific data call as of January 14, 2005. In addition, DCMA provided a list of
           one-time moving costs and special space requirements associated with the
           scenario.




3
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
4
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and members of Congress or their staffs.
                                                       6
Internal Control Processes
     The DCMA data collection processes for the sites visited generally complied with
     the applicable ICPs for the capacity analysis data call, second data call, and
     scenario specific data call. In addition, the DCMA ICPs properly incorporated
     and supplemented the OSD ICP.

     We evaluated compliance with the DCMA ICP at 29 sites for the capacity
     analysis data call, 26 sites for the second data call, and 1 site for the scenario
     specific data call. During the data calls, we visited DCMA Headquarters, District
     offices, and CMO locations (see Appendixes B and C for a list of sites visited).
     At each site, we evaluated DCMA BRAC 2005 data collection processes to
     determine whether they complied with OSD and DCMA ICPs. The evaluation
     included reviewing whether the DCMA ICP incorporated and supplemented the
     OSD ICP and whether sites completed nondisclosure agreements, marked BRAC
     data, and safeguarded BRAC data. Specifically, we verified that all DCMA
     personnel participating in the BRAC process signed nondisclosure agreements;
     deliberative meeting minutes were documented; and that all data had been
     collected, marked, stored, transported, safeguarded, and maintained in compliance
     with OSD and DCMA ICPs.

     Completeness of ICPs. The DCMA BRAC 2005 ICP provides a uniform set of
     management controls designed to provide accountability for each sub-element of
     information and analysis used in the BRAC 2005 process. The DCMA ICP
     established BRAC 2005 responsibilities for the DCMA organizations and control
     mechanisms to safeguard DCMA BRAC information. The OSD and DCMA ICPs
     outlined supporting document requirements, information and communication
     controls, public affairs guidance, and the DCMA data collection plan.
     Specifically, the DCMA ICP included direction on completing nondisclosure
     agreements, close-hold requirements of BRAC information, marking and
     transporting BRAC information, and data certification requirements.

     Compliance with ICPs. DCMA sites visited were generally compliant with ICP
     procedures. For the sites visited, data collection processes for the capacity
     analysis data call, second data call, and scenario specific data call generally
     complied with the applicable ICPs. However, 10 of the 29 sites visited during the
     capacity analysis data call had minor ICP compliance deficiencies. These
     deficiencies included responses that were not properly certified, inadequate
     marking and storing of BRAC information, and not completing nondisclosure
     agreements. By the completion of the second data call, 24 of the 26 sites visited
     were in compliance with the applicable ICPs. The remaining two sites were
     taking actions to correct the ICP deficiencies. We consider any noncompliance
     with the ICP procedures to be corrected or immaterial and should not affect the
     integrity of the BRAC process.




                                         7
Conclusion
    After our review, DCMA BRAC 2005 data call responses for the sites visited
    were generally supported, complete, and reasonable. However, DCMA did not
    fully support all responses submitted to OSD. Five capacity analysis data call
    responses and 52 second data call responses remain unsupported. Forty-one of
    the 52 responses are JPAT 7. Subsequent to our site visits, the JPAT 7 group
    requested that DCMA change a number of the responses. We did not verify these
    changes; therefore, the issues related to these questions may no longer be valid.
    In addition, the data collection processes for the sites visited generally complied
    with applicable ICPs and the DCMA ICPs properly incorporated and
    supplemented the OSD ICP. However, two of the sites visited did not fully
    comply with the DCMA ICP, but were taking actions to correct the deficiencies.

    We discussed the outstanding issues concerning unsupported responses with
    DCMA management. DCMA concurred with our findings. We determined that
    these issues are immaterial and will not impact the overall reliability or integrity
    of the DCMA BRAC 2005 data.




                                          8
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of DCMA
   BRAC 2005 data. The evaluation included comparing question responses to
   supporting documentation and reviewing “Not Applicable” question responses to
   determine whether responses were reasonable and not default “Not Applicable”
   responses. Questions had either an answer or a “Not Applicable” response; a
   “Not Applicable” response was for questions determined not to apply to a site.
   The supporting documentations reviewed were dated from September 1, 1988
   through January 25, 2005 We ensured that the DCMA ICPs incorporated and
   supplemented the OSD ICP. We evaluated site data collection procedures to
   determine whether they were in compliance with DCMA ICP procedures to
   include reviewing the completion of nondisclosure agreements and the collection,
   marking, safeguarding, and maintenance of BRAC data. In addition, we
   interviewed the personnel responsible for preparing and certifying the responses
   to the data calls.

   Scope Limitations. We did not validate contractor CMO locations for any data
   call. During the second data call, we validated the same CMOs as for the
   capacity analysis data call with the exception of three CMOs: Chicago, Illinois;
   San Diego, California; Seattle, Washington; and their tertiary offices. We did not
   verify that the responses made it into the OSD Database.

   Capacity Analysis Data Call. DCMA received 753 capacity analysis data call
   questions from the OSD BRAC Office. DCMA Headquarters established a Data
   Control Board to determine the applicability of questions to DCMA. The Data
   Control Board reviewed the questions received and forwarded specific questions
   to each DCMA site. Specifically, the Data Control Board targeted 75 questions
   and sent the targeted questions to DCMA Headquarters, 3 District offices,
   44 CMOs, and 65 tertiary offices. We did not validate the Data Control Board
   selection process.

   We evaluated the DCMA targeted data call questions at each DCMA site visited.
   In addition, we evaluated the “Not Applicable” responses and support for
   reasonableness to ensure responses were not erroneous default answers. We
   judgmentally selected to visit 25 CMOs not located at contractor facilities. In
   addition, we reviewed the tertiary office responses under the jurisdiction of the
   25 CMOs visited. We issued 30 site memorandums to summarize the results of
   these 29 site visits. One site memorandum was provided to each site visited and
   DCMA Headquarters received an additional memorandum to summarize the
   results of the responses to Information Technology questions. For a listing of
   questions reviewed for each location see Appendix B.




                                       9
            Second Data Call. DCMA Headquarters received targeted questions from the
            JCSGs. Specifically, DCMA received HSA JCSG military value question
            numbers (1900 through 1982), HSA JCSG supplemental capacity question
            numbers (4072 through 4074, 4079 through 4081, 4096, and 4099 through 4103),
            Education and Training JCSG supplemental capacity question number (4000),
            Medical JCSG supplemental capacity question numbers (4242 through 4246),
            COBRA question numbers (1500 through 1507), and JPAT 7 question numbers
            (1400 through 1417, 1420, and 1421. 1 ) The Data Control Board reviewed the
            targeted data call questions and further targeted those questions to DCMA sites.
            We did not validate the Data Control Board selection process. However, DCMA
            complied with the requirement to have all stand-alone facilities and host
            installations including leased facilities answer JPAT 7 and COBRA data call
            questions.

            The targeted data call questions were sent to DCMA Headquarters, 3 district
            offices, 44 CMOs, and 64 tertiary offices. Specifically, DCMA Headquarters
            received 55 questions. Based on geographic location and Government-owned
            facilities, 3 district offices received between 16 and 48 questions; and 44 CMOs
            as well as 64 tertiary offices received between 16 and 45 questions. Due to time
            and funding constraints, we judgmentally selected not to visit San Diego,
            California; Chicago, Illinois; and Seattle, Washington. We audited the second
            data call responses for DCMA during the period from July 2004 through
            September 2004, and reviewed any changes through January 2005. Subsequent to
            our visit, the JPAT 7 group requested responding activities to update some of
            their responses based upon new guidance. We did not review the supporting
            documentation for the changed responses. We did not make a determination as to
            whether support was reasonable or accurate for HSA JCSG military value
            question numbers 1907 2 and 1908. 3

            Furthermore, we evaluated the “Not Applicable” responses and support for
            reasonableness to ensure responses were not erroneous defaults. In addition to
            reviewing the second data call responses, we followed up on outstanding issues
            from the capacity analysis data call. Specifically, we evaluated the following
            initial capacity analysis questions at the following sites:

                         •   Headquarters: question numbers 23, 27, 314, 316, 317, 319, 321,
                             322, 324, 326 through 329, 462, and 478;

                         •   District International: question numbers 301, 302, 304, 305,
                             311, 313, 345, 446, 447, 460, 461, 463 through 468, 471, 479, 481,
                             690 through 692, and 732;



1
    The JPAT 7 group made the decision to replace JPAT 7 questions 1418 and 1419 with JPAT 7 questions
    1420 and 1421.
2
    The question asked for the number of meetings between an organization’s senior officials, including flag
    officers, and senior officials from another organization located in the Washington, D.C., area.
3
    The question asked for the number of meetings between an organization’s senior officials, including flag
     officers, and members of Congress or their staffs.
                                                       10
                       •   District East: question numbers 301, 446, 447, and 690 through
                           692;

                       •   Atlanta: question number 301;

                       •   Boston: question numbers 301, 311, and 690 through 692;

                       •   Hartford: question numbers 301, 311, and 691;

                       •   Huntsville: question number 301;

                       •   Long Island: question numbers 690 through 692;

                       •   Springfield: question numbers 301 and 304;

                       •   District West: question numbers 301, 481, 691, and 692;

                       •   Denver: question numbers 301, 302, and 311;

                       •   Los Angeles: question numbers 301, 311, and 690 through 692;

                       •   Northern California: 4 question numbers 301, 302, 305, 311, 313,
                           446, 447, 460 through 463, 467, 468, 479, 481, 690 through 692,
                           and 732; and

                       •   Phoenix: question numbers 301, 311, 690, and 691.

           We issued 26 site memorandums to summarize the results of the second data call
           site visits. For a list of question numbers reviewed per location see Appendix C.




4
    DCMA Northern California was formerly called DCMA San Francisco.
                                                 11
    Scenario Specific Data Call. DCMA Headquarters received one scenario
    specific data call from one JCSG as of January 14, 2005. We validated the
    response and support associated with the HSA-0067 scenario specific data call.

    We performed this audit from January 2004 through February 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support answers to data call questions because
    of time constraints. Potential inaccuracies in the data could impact the results.
    However, the BRAC data were certified as accurate and complete to the best of
    the certifiers’ knowledge and belief. We did not review the DCT used. The
    Army Audit Agency evaluated the Army Online DCT and suggested that the
    Army review all data submitted before certification to ensure that responses were
    in the appropriate format. The corrections suggested by the Army Audit Agency
    for the Online DCT were implemented during the capacity analysis data call.
    DCMA used a modified version of this tool for the BRAC 2005 capacity analysis
    and second data calls. DCMA did not use a data collection tool for the scenario
    specific data call.

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Federal Real Property and the DoD Approach to
    Business Transformation, DoD Support Infrastructure Management high-risk
    areas.


Management Control Program Review
    We evaluated the DCMA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed nondisclosure
    agreements, deliberative meeting minutes, storage of BRAC data, and the
    supporting documentation for DCMA BRAC responses. Management controls
    were adequate as they applied to the audit objectives (see finding for specific
    details). We did not review the DCMA management control program because its
    provisions were not deemed applicable to the one-time data collection process.




Appendix B. Capacity Analysis Data Call
            Questions Reviewed
                                        12
 Table 1. Capacity Analysis Data Call Questions Reviewed at
                     DCMA Sites Visited

          DCMA Site                                  Question Number
                                           Answered                Not Applicable
DCMA Headquarters, Alexandria, 23-25, 27, 301, 313, 314, 26, 97, 98, 302-305, 310,
Virginia                            316-322, 325-329, 345,    311, 315, 323, 324, 330,
                                    446, 447, 462, 464, 466, 445, 448, 460, 461, 463,
                                    471, 478, 481, 582, and   465, 467, 468, 474, 479,
                                    690-692                   480, 482, 627, 732, and
                                                              751
District International, Alexandria, 690-692                   301-305, 310, 311, 313,
Virginia                                                      330, 345, 445-447, 460-
                                                              468, 471, 479, 481, and
                                                              732
District East, Boston,              301, 345, 446, 447, 479, 23-27, 97, 98, 302-305,
Massachusetts                       481, 690-692, and 732     310, 311, 313-330, 347-
                                                              349, 365-367, 371, 373,
                                                              386-388, 393, 445, 448,
                                                              455-457, 460-468, 471,
                                                              474, 478, 480, 482, 582,
                                                              627, and 751
CMO Atlanta, Georgia                301, 311, and 690-692     302-305, 310, 330, 345,
                                                              468, 471, 479, and 732




                                         13
Table 1. (cont’d)

         DCMA Site                           Question Number
                                   Answered                Not Applicable
CMO Boston, Massachusetts   301 and 690-692           23-27, 97, 98, 302-305,
                                                      310, 311, 313-330, 345,
                                                      347-349, 365-367, 371,
                                                      373, 386-388, 393, 445-
                                                      448, 455-457, 460-468,
                                                      471, 474, 478-482, 582,
                                                      627, 732, and 751
CMO Dayton, Ohio            301, 311, and 690-692     302-305, 310, 313, 330,
                                                      345, 445-447, 460-468,
                                                      471, 479, 481, and 732
CMO Detroit, Michigan       301, 302, 304, 305, 311, 23-27, 97, 98, 303, 310,
                            313, and 690-692          314-330, 345, 347-349,
                                                      365-367, 371, 373, 386-
                                                      388, 393, 445-448, 455-
                                                      457, 460-468, 471, 474,
                                                      478-482, 582, 627, 732,
                                                      and 751
CMO Hartford, Connecticut   301, 311, and 690-692     23-27, 97, 98, 302-305,
                                                      310, 313-330, 345, 347-
                                                      349, 365-367, 371, 373,
                                                      386-388, 393, 445-448,
                                                      455-457, 460-468, 471,
                                                      474, 478-482, 582, 627,
                                                      732, and 751
CMO Huntsville, Alabama     301, 311, 345, and 690-   23-27, 97, 98, 302-305,
                            692                       310, 313-330, 347-349,
                                                      365-367, 371, 373, 386-
                                                      388, 393, 445-448, 455-
                                                      457, 460-468, 471, 474,
                                                      478, 480-482, 582, 627,
                                                      732, and 751




                                  14
Table 1. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
CMO Indianapolis, Indiana        310, 311, 690-692, and    301-305, 313, 330, 345,
                                 732                       445-447, 460-468, 471,
                                                           479, and 481
CMO Long Island, New York        311 and 690-692           301-305, 310, 313, 330,
                                                           345, 445-447, 460-468,
                                                           471, 479, 481, and 732
CMO Maryland, Baltimore,         462, 463, 466, and 690-   23-27, 97-98, 301-305,
Maryland                         692                       310, 311, 313-330, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460, 461,
                                                           464, 465, 467, 468, 471,
                                                           474, 478-482, 582, 627,
                                                           732, and 751
CMO Orlando, Florida             311 and 690-692           301-305, 310, 313, 330,
                                                           345, 445-447, 460-468,
                                                           471, 479, 481, and 732
CMO Philadelphia, Pennsylvania   301, 302, 345, and 690-   23-27, 303-305, 310,
                                 692                       311, 313, 315-330, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478-482, 582,
                                                           627, 732, and 754
CMO Springfield, Picatinny       301, 303, 304, and 690-   302, 305, 310, 311, 313,
Arsenal, New Jersey              692                       330, 345, 445-447, 460-
                                                           468, 471, 479, 481, and
                                                           732
CMO Syracuse, New York           310, 311, 690-692, and    23-27, 301-305, 313-
                                 732                       330, 345, 445-448, 455-
                                                           457, 460, 461, 465, 466,
                                                           468, 471, 474, 478-482,
                                                           582, and 627




                                       15
Table 1. (cont’d)

           DCMA Site                                 Question Number
                                           Answered                Not Applicable
CMO Virginia-Northern,              462, 464, 466, and 690-   23-27, 97, 98, 301-305,
Manassas, Virginia                  692                       310, 311, 313-330, 345,
                                                              347-349, 365-367, 371,
                                                              373, 386-388, 393, 445-
                                                              448, 455-457, 460, 461,
                                                              463, 465, 467, 468, 471,
                                                              474, 478-482, 582, 627,
                                                              732, and 751
District West, Carson, California   301, 446, 447, 479, 481, 23-27, 97, 98, 302-305,
                                    and 690-692               310, 311, 313-330, 345,
                                                              347-349, 365-367, 371,
                                                              373, 386-388, 393, 445,
                                                              448, 455-457, 460-468,
                                                              471, 474, 478, 480, 482,
                                                              582, 627, 732, and 751
CMO Chicago, Illinois               301, 311, and 690-692     23-27, 97-98, 302-305,
                                                              310, 313-330, 345, 347-
                                                              349, 365-367, 371, 373,
                                                              386-388, 393, 445-448,
                                                              455-457, 460-468, 471,
                                                              474, 478-482, 582, 627,
                                                              732, and 751
CMO Dallas, Texas                   311, 313, 330, 345, 690, 301-305, 310, 445, 456,
                                    and 691                   457, 692, and 732
CMO Denver, Colorado                302, 311, 330, 445, and   23-27, 97, 98, 301, 304,
                                    690-692                   305, 313-327, 329, 347-
                                                              349, 365-367, 373, 386-
                                                              388, 393, 446-448, 455-
                                                              457, 460-468, 471, 474,
                                                              478-482, 582, 627, 732,
                                                              and 751




                                          16
Table 1. (cont’d)

              DCMA Site                                   Question Number
                                                Answered                Not Applicable
CMO Los Angeles, 1 California            301, 311, 479, and 690-   23-27, 97, 98, 302-305,
                                         692                       310, 313-330, 345, 347-
                                                                   349, 365-367, 371, 373,
                                                                   386-388, 393, 445-448,
                                                                   455-457, 460-468, 471,
                                                                   474, 478, 480-482, 582,
                                                                   627, 732, and 751
CMO Northern California, 2               311                       301-305, 310, 313, 330,
French Camp, California                                            345, 445-447, 460-468,
                                                                   471, 479, 481, 690-692,
                                                                   and 732
CMO Phoenix, Arizona                     310, 311, 313, and 690-   23-27, 97-98, 301-305,
                                         692                       314-330, 345, 347-349,
                                                                   365-367, 371, 373, 386-
                                                                   388, 393, 445-448, 455-
                                                                   457, 460-468, 471, 474,
                                                                   478-482, 582, 627, 732,
                                                                   and 751
CMO San Antonio, Texas                   311, 330, and 690-692     23-27, 97-98, 301-305,
                                                                   310, 313-329, 345, 347-
                                                                   349, 365-367, 371, 373,
                                                                   386-388, 393, 445-448,
                                                                   455-457, 460-468, 471,
                                                                   474, 478-482, 582, 627,
                                                                   732, and 751
CMO San Diego, California                311, 313, and 690-692     301-305, 310, 330, 345,
                                                                   445-448, 455-457, 460-
                                                                   468, 471, 474, 478-482,
                                                                   582, 627, 732, and 754




1
    DCMA Los Angeles was formerly called DCMA Van Nuys.
2
    DCMA Northern California was formerly called DCMA San Francisco.
                                                 17
Table 1. (cont’d)

          DCMA Site                              Question Number
                                       Answered                Not Applicable
CMO Santa Ana, California       311, 313, and 690-692     301-305, 310, 330, 345,
                                                          445-447, 460-468, 471,
                                                          479, 482, and 732
CMO Seattle, Washington         301, 311, and 690-692     302-305, 310, 313, 330,
                                                          345, 445-447, 460-468,
                                                          471, 479, 481, and 732
CMO Twin Cities, Minneapolis,   301, 311, and 690-692     302-305, 310, 313, 330,
Minnesota                                                 345, 445-447, 460-468,
                                                          471, 479, 481, and 732




                                      18
Table 2. Capacity Analysis Data Call Questions Reviewed for
                   DCMA Tertiary Offices

          DCMA Site                              Question Number
                                       Answered                Not Applicable
St. Petersburg (CMO Atlanta,    311, 313, 479, and 690-   301-305, 310, 330, 345,
Georgia)                        692                       468, 471, and 732
BAE Systems (CMO Boston,        690 and 692               23-27, 97, 98, 301-305,
Massachusetts)                                            310, 311, 313-330, 345,
                                                          347-349, 365-367, 371,
                                                          373, 386-388, 393, 445-
                                                          448, 455-457, 460-468,
                                                          471, 474, 478-482, 582,
                                                          627, 732, and 751
General Dynamics Governmental   690 and 692               23-27, 97, 98, 301-305,
Systems (CMO Boston,                                      310, 311, 313-330, 345,
Massachusetts)                                            347-349, 365-367, 371,
                                                          373, 386-388, 393, 445-
                                                          448, 455-457, 460-468,
                                                          471, 474, 478-482, 582,
                                                          627, 732, and 751
Manchester (CMO Boston,         301, 311, and 690         23-27, 97, 98, 302-305,
Massachusetts)                                            310, 313-330, 345, 347-
                                                          349, 365-367, 371, 373,
                                                          386-388, 393, 445-448,
                                                          455-457, 460-468, 471,
                                                          474, 478-482, 582, 627,
                                                          732, and 751




                                      19
Table 2. (cont’d)

          DCMA Site                                Question Number
                                         Answered                Not Applicable
Milwaukee (CMO Chicago,           311 and 690-692           23-27, 97-98, 301-305,
Illinois)                                                   310, 313-330, 345, 347-
                                                            349, 365-367, 371, 373,
                                                            386-388, 393, 445-448,
                                                            455-457, 460-468, 471,
                                                            474, 478-482, 582, 627,
                                                            732, and 751
Northrop Grumman, Rolling         311 and 690-692           23-27, 97-98, 301-305,
Meadows (CMO Chicago,                                       310, 313-330, 345, 347-
Illinois)                                                   349, 365-367, 371, 373,
                                                            386-388, 393, 445-448,
                                                            455-457, 460-468, 471,
                                                            474, 478-482, 582, 627,
                                                            732, and 751
Rockford (CMO Chicago,            301, 311, and 690-692     23-27, 97-98, 302-305,
Illinois)                                                   310, 313-330, 345, 347-
                                                            349, 365-367, 371, 373,
                                                            386-388, 393, 445-448,
                                                            455-457, 460-468, 471,
                                                            474, 478-482, 582, 627,
                                                            732, and 751
St. Louis (CMO Chicago, Illinois) 301, 311, and 690-692     23-27, 97-98, 302-305,
                                                            310, 313-330, 345, 347-
                                                            349, 365-367, 371, 373,
                                                            386-388, 393, 445-448,
                                                            455-457, 460-468, 471,
                                                            474, 478-482, 582, 627,
                                                            732, and 751
Ft. Worth (CMO Dallas, Texas)     301, 311, and 690-692     302, 303, 305, 310, 330,
                                                            345, 456, 457, and 732
Arlington (CMO Dallas, Texas)     301, 302, 311, 313, and   303, 305, 310, 330, 345,
                                  690-692                   445, 456, 457, and 732




                                         20
Table 2. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
Richardson (CMO Dallas, Texas)   302, 313, 690, and 691    303-305, 310, 311, 330,
                                                           345, 445, 456, 457, and
                                                           732
L3 (CMO Dallas, Texas)           690 and 691               301-303, 305, 310, 311,
                                                           313, 330, 345, 445, 456,
                                                           457, 692, and 732
Lockheed Martin (CMO Dallas,     690 and 691               301-305, 310, 311, 313,
Texas)                                                     330, 345, 445, 456, 457,
                                                           and 732
Cleveland (CMO Dayton, Ohio)     301, 456, and 690-692     302-305, 310, 311, 313,
                                                           330, 345, 445-447, 457,
                                                           460-468, 471, 479, 481,
                                                           and 732
Newark (CMO Dayton, Ohio)        690-692                   301-305, 310, 311, 313,
                                                           330, 345, 445-447, 460-
                                                           468, 471, 479, 481, and
                                                           732
General Electric Aircraft,       690-692                   301-305, 310, 311, 313,
Cincinnati (CMO Dayton, Ohio)                              330, 345, 445-447, 460-
                                                           468, 471, 479, 481, and
                                                           732
Pittsburgh (CMO Dayton, Ohio)    301, 311, and 690-692     302-305, 310, 313, 330,
                                                           345, 445-447, 460-468,
                                                           471, 479, 481, and 732
Lockheed Martin, Akron (CMO      690 and 691               301, 303-305, 310, 311,
Dayton, Ohio)                                              313, 330, 345, 445-447,
                                                           460-468, 471, 479, 481,
                                                           692, and 732




                                       21
Table 2. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
Salt Lake City (CMO Denver,      301, 311, and 690-692     23-27, 97, 98, 302, 304,
Colorado)                                                  305, 313-327, 329, 330,
                                                           347-349, 365-367, 373,
                                                           386-388, 393, 445-448,
                                                           455-457, 460-468, 471,
                                                           474, 478-482, 582, 627,
                                                           732, and 751
ATK Thiokol (CMO Denver,         690-692                   23-27, 97, 98, 301, 302,
Colorado)                                                  304, 305, 311, 313-327,
                                                           329, 330, 347-349, 365-
                                                           367, 373, 386-388, 393,
                                                           445-448, 455-457, 460-
                                                           468, 471, 474, 478-482,
                                                           582, 627, 732, and 751
Grand Rapids (CMO Detroit,       311, 313, and 690-692     23-27, 97, 98, 303, 310,
Michigan)                                                  314-330, 345, 347-349,
                                                           365-367, 371, 373, 386-
                                                           388, 393, 445-448, 455-
                                                           457, 460-468, 471, 474,
                                                           478-482, 582, 627, 732,
                                                           and 751
General Dynamics Land Systems-   301, 302, 304, 305, and   23-27, 97-98, 303, 310,
Lima (CMO Detroit, Michigan)     690-692                   314-330, 345, 347-349,
                                                           365-367, 371, 373, 386-
                                                           388, 393, 445-448, 455-
                                                           457, 460-468, 471, 474,
                                                           478-482, 582, 627, 732,
                                                           and 751




                                       22
Table 2. (cont’d)

          DCMA Site                            Question Number
                                      Answered               Not Applicable
General Dynamics, Burlington   690-692                  23-27, 97-98, 301-305,
(CMO Hartford, Connecticut)                             310, 311, 313-330, 345,
                                                        347-349, 365-367, 371,
                                                        373, 386-388, 393, 445-
                                                        448, 455-457, 460-468,
                                                        471, 474, 479-482, 582,
                                                        627, 732, and 751
General Dynamics, Pittsfield   301 and 690-692          23-27, 97-98, 302-305,
(CMO Hartford, Connecticut)                             310, 311, 313-330, 345,
                                                        347-349, 365-367, 371,
                                                        373, 386-388, 393, 445-
                                                        448, 455-457, 460-468,
                                                        471, 474, 478-482, 582,
                                                        627, 732, and 751
Hamilton Sundstrand (CMO       690-692                  23-27, 97-98, 301-305,
Hartford, Connecticut)                                  310, 311, 313-330, 345,
                                                        347-349, 365-367, 371,
                                                        373, 386-388, 393, 445-
                                                        448, 455-457, 460-468,
                                                        471, 474, 478-482, 582,
                                                        627, 732, and 751
Stratford (CMO Hartford,       301 and 690-692          23-27, 97-98, 302-305,
Connecticut)                                            310, 311, 313-330, 345,
                                                        347-349, 365-367, 371,
                                                        373, 386-388, 393, 445-
                                                        448, 455-457, 460-468,
                                                        471, 474, 478-482, 582,
                                                        627, 732, and 751




                                     23
Table 2. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
Birmingham (CMO Huntsville,      301, 311, 313, 479, 690, 23-27, 97, 98, 302-305,
Alabama)                         and 691                   310, 314-330, 345, 347-
                                                           349, 365-367, 371, 373,
                                                           386-388, 393, 445-448,
                                                           455-457, 460-468, 471,
                                                           474, 478, 480-482, 582,
                                                           627, 692, 732, and 751
South Bend (CMO Indianapolis,    311, 690-692, and 732     301-305, 310, 313, 330,
Indiana)                                                   345, 445-447, 460-468,
                                                           471, 479, and 481
Rolls Royce (CMO Indianapolis,   690-692                   301-305, 310, 311, 313,
Indiana)                                                   330, 345, 445-447, 460-
                                                           468, 471, 479, 481, and
                                                           732
Raytheon-Fort Wayne (CMO         690 and 691               301-305, 310, 311, 313,
Indianapolis, Indiana)                                     330, 345, 445-447, 460-
                                                           468, 471, 479, 481, 692,
                                                           and 732
Raytheon Technical Services      690 and 691               301-305, 310, 311, 313,
Company (CMO Indianapolis,                                 330, 345, 445-447, 460-
Indiana)                                                   468, 471, 479, 481, 692,
                                                           and 732
New York (CMO Long Island,       311 and 690-692           301-305, 310, 313, 330,
New York)                                                  345, 445-447, 460-468,
                                                           471, 479, 481, and 732




                                       24
Table 2. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
Boeing-Canoga Park (CMO Los      690-692                   23-27, 97, 98, 301-305,
Angeles, California)                                       310, 311, 313-330, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478, 480-482,
                                                           582, 627, 732, and 751
Carson (CMO Los Angeles,         301, 311, 479, and 690-   23-27, 97, 98, 302-305,
California)                      692                       310, 313-330, 345, 347-
                                                           349, 365-367, 371, 373,
                                                           386-388, 393, 445-448,
                                                           455-457, 460-468, 471,
                                                           474, 478, 480-482, 582,
                                                           627, 732, and 751
Oxnard (Port Hueneme Naval       301, 311, and 690-692     23-27, 97, 98, 302-305,
Base) (CMO Los Angeles,                                    310, 313-330, 345, 347-
California)                                                349, 365-367, 371, 373,
                                                           386-388, 393, 445-448,
                                                           455-457, 460-468, 471,
                                                           474, 478, 480-482, 582,
                                                           627, 732, and 751
Northrop Grumman (CMO            690-692                   23-27, 97-98, 301-305,
Maryland, Baltimore, Maryland)                             310, 311, 313-330, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478-482, 582,
                                                           627, 732, and 751
Silicon Valley (CMO Northern     311                       301-305, 310, 313, 330,
California, San Francisco,                                 345, 445-447, 460-468,
California)                                                471, 479, 481, 690-692,
                                                           and 732




                                       25
Table 2. (cont’d)

          DCMA Site                             Question Number
                                      Answered                Not Applicable
South Florida (CMO Orlando,    311 and 690-692           301-305, 310, 313, 330,
Florida)                                                 345, 445-447, 460-468,
                                                         471, 479, 481, and 732
Lockheed Martin (CMO Orlando, 690-692                    301-305, 310, 311, 313,
Florida)                                                 330, 345, 445-447, 460-
                                                         468, 471, 479, 481, and
                                                         732
Northrop Grumman (CMO          690-692                   301-305, 310, 311, 313,
Orlando, Florida)                                        330, 345, 445-447, 460-
                                                         468, 471, 479, 481, and
                                                         732
Harris (CMO Orlando, Florida)  690 and 691               301-305, 310, 311, 313,
                                                         330, 345, 445-447, 460-
                                                         468, 471, 479, 481, 692,
                                                         and 732
Central Pennsylvania Reading   301, 302, 311, 313, 345, 23-27, 303-305, 310,
(CMO Philadelphia,             462-467, 690, and 691     315-330, 445-448, 455-
Pennsylvania)                                            457, 460, 461, 468, 471,
                                                         474, 478-482, 582, 627,
                                                         692, 732, and 754
Central Pennsylvania York (CMO 345 and 690-692           23-27, 301-305, 310,
Philadelphia, Pennsylvania)                              311, 313, 315-330, 445-
                                                         448, 455-457, 460-468,
                                                         471, 474, 478-482, 582,
                                                         627, 732, and 754
Albuquerque (CMO Phoenix,      301, 310, 311, 313, and   23-27, 97, 98, 302-305,
Arizona)                       690-692                   314-330, 345, 347-349,
                                                         365-367, 371, 373, 386-
                                                         388, 393, 445-448, 455-
                                                         457, 460-468, 471, 474,
                                                         478-482, 582, 627, 732,
                                                         and 751




                                       26
Table 2. (cont’d)

         DCMA Site                                Question Number
                                        Answered                Not Applicable
Boeing Mesa (CMO Phoenix,        690-692                   23-27, 97, 98, 301-305,
Arizona)                                                   310, 311, 313-330, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478-482, 582,
                                                           627, 732, and 751
NASA Programs (CMO San           330 and 690-692           23-27, 97, 98, 301-305,
Antonio, Texas)                                            310, 311, 313-329, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478-482, 582,
                                                           627, 732, and 751
Kelly (CMO San Antonio, Texas)   330 and 690-692           23-27, 97, 98, 301-305,
                                                           310, 311, 313-329, 345,
                                                           347-349, 365-367, 371,
                                                           373, 386-388, 393, 445-
                                                           448, 455-457, 460-468,
                                                           471, 474, 478-482, 582,
                                                           627, 732, and 751
Irvine (CMO Santa Ana,           311, 313, and 690-692     301-305, 310, 330, 345,
California)                                                445-447, 460-468, 471,
                                                           479, 482, and 732
Norwalk (CMO Santa Ana,          311, 313, 690, and 691    301-305, 310, 330, 345,
California)                                                445-447, 460-468, 471,
                                                           479, 482, 692, and 732
Ontario (CMO Santa Ana,          311, 313, 690, and 691    301-305, 310, 330, 345,
California)                                                445-447, 460-468, 471,
                                                           479, 482, 692, and 732




                                       27
Table 2. (cont’d)

          DCMA Site                             Question Number
                                      Answered                Not Applicable
Raytheon (CMO Santa Ana,       690-692                   301-305, 310, 311, 313,
California)                                              330, 345, 445-447, 460-
                                                         468, 471, 479, 482, and
                                                         732
Northrop Grumman (CMO Santa    690-692                   301-305, 310, 311, 313,
Ana, California)                                         330, 345, 445-447, 460-
                                                         468, 471, 479, 482, and
                                                         732
Rockwell-Cedar Rapids (CMO     690-692                   301-305, 310, 311, 313,
Twin Cities, Minneapolis,                                330, 345, 445-447, 460-
Minnesota)                                               468, 471, 479, 481, and
                                                         732
Wichita (CMO Twin Cities,      311 and 690-692           301-305, 310, 313, 330,
Minneapolis, Minnesota)                                  345, 445-447, 460-468,
                                                         471, 479, 481, and 732
Virginia-Southern (CMO         301, 311, and 690-692     23-27, 97, 98, 302-305,
Virginia-Northern, Manassas,                             310, 313-330, 345, 347-
Virginia)                                                349, 365-367, 371, 373,
                                                         386-388, 393, 445-448,
                                                         455-457, 460-468, 471,
                                                         474, 478-482, 582, 627,
                                                         732, and 751




                                     28
Appendix C. Second Data Call Questions
            Reviewed

Table 1. Second Data Call Questions Reviewed at DCMA Sites
                           Visited

               DCMA Site                                   Question Number
                                                  Answered               Not Applicable
Headquarters, Alexandria,                  1400-1417, 1420, 1421,   1500, 1502, 1503, 1506,
Virginia                                   1501, 1504, 1505, 1905, 1507, 1901, 1912, 1917,
                                           1907-1911, 1913-1916,    1959-1964, 4000, 4072-
                                           and 4099-4103            4074, 4079-4081, and
                                                                    4096
District International, Alexandria,        1911                     1400-1417, 1420, 1421,
Virginia                                                            1500-1507, 1901, 1905,
                                                                    1907-1910, 1912-1917,
                                                                    1959-1964, 4000, 4072-
                                                                    4074, 4079-4081, 4096,
                                                                    and 4099-4103
District East, Boston, *                   1905, 1911, 1914, 1916, 1400-1417, 1500-1507,
Massachusetts                              and 4000                 1901, 1907-1910, 1912,
                                                                    1913, 1915, 1917, 1959-
                                                                    1964, 4072-4074, 4079-
                                                                    4081, 4096, 4099-4103,
                                                                    and 4242-4246
CMO Atlanta, Georgia                       1400-1417, 1420, 1421,   1500-1504, 1506, 1507,
                                           1505, and 1911           1901, 1905, 1907-1910,
                                                                    1912-1917, 1959-1964,
                                                                    4000, 4072-4074, 4079-
                                                                    4081, 4096, 4099, 4101-
                                                                    4103, and 4242-4246




*
    JPAT 7 question numbers 1420 and 1421 were issued after the completion of the site visits at DCMA
    District East, DCMA Boston, DCMA Denver, DCMA Hartford, DCMA Los Angeles, DCMA Northern
    California, and DCMA Phoenix; therefore, the responses were not validated.
                                                   29
Table 1. (cont’d)
          DCMA Site                          Question Number
                                   Answered                Not Applicable
CMO Boston, Massachusetts   1905, 1910, 1911, 1913, 1400-1417, 1500-1507,
                            1914, 1962, and 4080      1901, 1907-1909, 1912,
                                                      1915-1917, 1959-1961,
                                                      1963, 1964, 4000, 4072-
                                                      4074, 4079, 4081, 4096,
                                                      4099-4103, and 4242-
                                                      4246
CMO Dayton, Ohio            1911 and 1914             1900-1910, 1912, 1913,
                                                      1915-1981, 4000, 4072-
                                                      4074, 4079-4081, 4096,
                                                      4099-4103, and 4242-
                                                      4246
CMO Detroit, Michigan       1909-1911                 1905, 1912-1917, 1962,
                                                      4000, 4072-4074, 4079-
                                                      4081, 4096, 4099-4103,
                                                      and 4242-4246
CMO Hartford, Connecticut   1400-1417, 1501, 1505,    1500, 1502-1504, 1506,
                            and 1911                  1507, 1900-1910, 1912-
                                                      1917, 4000, 4072-4074,
                                                      4079-4081, 4096, 4099-
                                                      4103, and 4242-4246
CMO Huntsville, Alabama     1911                      1400-1417, 1420, 1421,
                                                      1500-1507, 1901, 1905,
                                                      1907-1910, 1912-1917,
                                                      1959-1964, 4000, 4072-
                                                      4074, 4079-4081, 4096,
                                                      4099-4103, and 4242-
                                                      4246
CMO Indianapolis, Indiana   1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
                            1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                      1981, 4000, 4072-4074,
                                                      4079-4081, 4096, 4099-
                                                      4103, and 4242-4246




                                  30
Table 1. (cont’d)

          DCMA Site                               Question Number
                                        Answered                Not Applicable
CMO Long Island, New York        1911                      1400-1417, 1420, 1421,
                                                           1500-1507, 1901, 1905,
                                                           1907-1910, 1912-1917,
                                                           1959-1964, 4000, 4072-
                                                           4074, 4079-4081, 4096,
                                                           4099-4103, and 4242-
                                                           4246
CMO Maryland, Baltimore,         1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Maryland                         1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                           1981, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099-
                                                           4103, and 4242-4246
CMO Orlando, Florida             1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
                                 1501, 1505, and 1911      1507, 1901, 1905, 1907-
                                                           1910, 1912-1917, 1959-
                                                           1964, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099-
                                                           4103, and 4242-4246
CMO Philadelphia, Pennsylvania   1911 and 1914             1900-1910, 1912, 1913,
                                                           1915-1981, 4000, 4072-
                                                           4074, 4079-4081, 4096,
                                                           4099-4103, and 4242-
                                                           4246
CMO Springfield, Picatinny       1911                      1400-1417, 1420, 1421,
Arsenal, New Jersey                                        1500-1507, 1901, 1905,
                                                           1907-1910, 1912-1917,
                                                           1959-1964, 4000, 4072-
                                                           4074, 4079-4081, 4096,
                                                           4099-4103, and 4242-
                                                           4246




                                       31
Table 1. (cont’d)

           DCMA Site                                 Question Number
                                           Answered                Not Applicable
CMO Syracuse, New York              1400-1417, 1420, 1421,    1500, 1502, 1503, 1506,
                                    1501, 1504, 1505, and     1507, 1901, 1905, 1907-
                                    1911                      1910, 1912-1917, 1959-
                                                              1964, 4000, 4072-4074,
                                                              4079, 4080, and 4096
CMO Virginia-Northern,              1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Manassas, Virginia                  1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                              1982, 4000, 4072-4074,
                                                              4079-4081, 4096, 4099-
                                                              4103, and 4242-4246
District West, Carson, California   1905, 1911, 1913-1917,    1400-1418, 1420, 1421,
                                    and 4081                  1500-1507, 1907-1910,
                                                              1912, 4000, 4072-4074,
                                                              4079, and 4080
CMO Dallas, Texas                   1400-1417, 1420, 1421,    1500, 1502, 1503, 1506,
                                    1501, 1504, 1505, and     1507, 1900-1910, 1912-
                                    1911                      1982, 4000, 4072-4074,
                                                              4079-4081, 4096, 4099,
                                                              4101-4103, and 4242-
                                                              4246
CMO Denver, Colorado                1400-1417, 1501, 1504,    1500, 1502, 1503, 1506,
                                    1505, 1911, and 1912      1507, 1900-1910, 1913-
                                                              1982, 4000, 4072-4074,
                                                              4079-4081, 4096, 4099,
                                                              4101-4103, and 4242-
                                                              4246
CMO Los Angeles, California         1400-1417, 1501, 1505,    1500, 1502-1504, 1506,
                                    and 1911                  1507, 1905, 1907-1910,
                                                              1912-1917, 4000, 4072-
                                                              4074, and 4079-4081




                                          32
Table 1. (cont’d)

          DCMA Site                              Question Number
                                       Answered                Not Applicable
CMO Northern California, French 1911 and 1914             1400-1417, 1500-1507,
Camp, California                                          1905, 1907-1910, 1912,
                                                          1913, 1915-1917, 4000,
                                                          4072-4074, 4080, and
                                                          4096
CMO Phoenix, Arizona            1400-1417, 1501, 1504,    1500, 1502, 1503, 1506,
                                1505, 1911, and 1912      1507, 1914, 4000, 4072-
                                                          4074, 4079-4081, 4096,
                                                          4099, and 4100
CMO San Antonio, Texas          1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
                                1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                          1982, 4000, 4072-4074,
                                                          4079-4081, 4096, 4099,
                                                          4101-4103, and 4242-
                                                          4246
CMO Santa Ana, California       1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
                                1501, 1505, and 1911      1507, 1905, 1907-1910,
                                                          1912-1917, 4000, 4072-
                                                          4074, and 4079-4081
CMO Twin Cities, Minneapolis,   1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Minnesota                       1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                          1981, 4000, 4072-4074,
                                                          4079-4081, 4096, 4099-
                                                          4103, and 4242-4246




                                       33
  Table 2. Second Data Call Questions Reviewed for DCMA
                      Tertiary Offices

      DCMA Tertiary Site                        Question Number
                                      Answered                Not Applicable
St. Petersburg (CMO Atlanta,   1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Georgia)                       1501, 1505, and 1911      1507, 1901, 1905, 1907-
                                                         1910, 1912-1917, 1959-
                                                         1964, 4000, 4072-4074,
                                                         4079-4081, 4096, 4099,
                                                         4101-4103, and 4242-
                                                         4246
Manchester (CMO Boston,        1400-1417, 1501, 1505,    1500, 1502-1504, 1506,
Massachusetts)                 1905, and 1911            1507, 1901, 1907-1910,
                                                         1912-1917, 1959-1964,
                                                         4000, 4072-4074, 4079-
                                                         4081, 4096, 4099-4103,
                                                         and 4242-4246
BAE Systems (CMO Boston,       1905 and 1911             1400-1417, 1500-1507,
Massachusetts)                                           1901, 1907-1910, 1912-
                                                         1917, 1959-1964, 4000,
                                                         4072-4074, 4079-4081,
                                                         4096, 4099-4103, and
                                                         4242-4246
General Dynamics Government    1905 and 1911             1400-1417, 1500-1507,
Systems (CMO Boston,                                     1901, 1907-1910, 1912-
Massachusetts)                                           1917, 1959-1964, 4000,
                                                         4072-4074, 4079-4081,
                                                         4096, 4099-4103, and
                                                         4242-4246
Cleveland (CMO Dayton, Ohio)   1911 and 4000             1900-1910, 1912-1981,
                                                         4072-4074, 4079-4081,
                                                         4096, 4099-4103, and
                                                         4242-4246




                                     34
Table 2. (cont’d)

      DCMA Tertiary Site                             Question Number
                                           Answered                Not Applicable
General Electric Aircraft Engines   1911                      1900-1910, 1912-1981,
Cincinnati (CMO Dayton, Ohio)                                 4000, 4072-4074, 4079-
                                                              4081, 4096, 4099-4103,
                                                              and 4242-4246
Lockheed Martin Akron (CMO          1911                      1900-1910, 1912-1981,
Dayton, Ohio)                                                 4000, 4072-4074, 4079-
                                                              4081, 4096, 4099-4103,
                                                              and 4242-4246
Newark (CMO Dayton, Ohio)           1911                      1900-1910, 1912-1981,
                                                              4000, 4072-4074, 4079-
                                                              4081, 4096, 4099-4103,
                                                              and 4242-4246
Pittsburgh (CMO Dayton, Ohio)       1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
                                    1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                              1981, 4000, 4072-4074,
                                                              4079-4081, 4096, 4099-
                                                              4103, and 4242-4246
General Dynamics Land Systems-      1909-1911                 1905, 1912-1917, 1962,
Lima (CMO Detroit, Michigan)                                  4000, 4072-4074, 4079-
                                                              4081, 4096, 4099-4103,
                                                              and 4242-4246
Grand Rapids (CMO Detroit,          1400-1417, 1501, 1505,    1500, 1502-1504, 1506,
Michigan)                           and 1909-1911             1507, 1905, 1912-1917,
                                                              1962, 4000, 4072-4074,
                                                              4079-4081, 4096, 4099-
                                                              4103, and 4242-4246
Stratford (CMO Hartford,            1911                      1400-1417, 1500-1507,
Connecticut)                                                  1900-1910, 1912-1917,
                                                              4000, 4072-4074, 4079-
                                                              4081, 4096, 4099-4103,
                                                              and 4242-4246




                                          35
Table 2. (cont’d)

      DCMA Tertiary Site                          Question Number
                                        Answered                Not Applicable
General Dynamics Armament        1911                      1400-1417, 1500-1507,
(CMO Hartford, Connecticut)                                1900-1910, 1912-1917,
                                                           4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246
General Dynamics Pittsfield      1911                      1400-1417, 1500-1507,
(CMO Hartford, Connecticut)                                1900-1910, 1912-1917,
                                                           4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246
Hamilton Sunstrand (CMO          1911                      1400-1417, 1500-1507,
Hartford, Connecticut)                                     1900-1910, 1912-1917,
                                                           4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246
Birmingham (CMO Huntsville,      1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Alabama)                         1501, 1505, and 1911      1507, 1901, 1905, 1907-
                                                           1910, 1912-1917, 1959-
                                                           1964, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099-
                                                           4103, and 4242-4246
Raytheon Fort Wayne (CMO         1911                      1900-1910, 1912-1981,
Indianapolis, Indiana)                                     4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246
Rolls Royce (CMO Indianapolis,   1911                      1900-1910, 1912-1981,
Indiana)                                                   4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246




                                       36
Table 2. (cont’d)

      DCMA Tertiary Site                          Question Number
                                        Answered                Not Applicable
New York (CMO Long Island,       1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
New York)                        1501, 1505, and 1911      1507, 1901, 1905, 1907-
                                                           1910, 1912-1917, 1959-
                                                           1964, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099-
                                                           4103, and 4242-4246
Northrop Grumman Bethpage        1911                      1400-1417, 1420, 1421,
(CMO Long Island, New York)                                1500-1507, 1901, 1905,
                                                           1907-1910, 1912-1917,
                                                           1959-1964, 4000, 4072-
                                                           4074, 4079-4081, 4096,
                                                           4099-4103, and 4242-
                                                           4246
Northrop Grumman (CMO            1911                      1900-1910, 1912-1981,
Maryland, Baltimore, Maryland)                             4000, 4072-4074, 4079-
                                                           4081, 4096, 4099-4103,
                                                           and 4242-4246
South Florida (CMO Orlando,      1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Florida)                         1501, 1505, and 1911      1507, 1901, 1905, 1907-
                                                           1910, 1912-1917, 1959-
                                                           1964, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099-
                                                           4103, and 4242-4246
Lockheed Martin (CMO Orlando,    1911                      1400-1417, 1420, 1421,
Florida)                                                   1500-1507, 1901, 1905,
                                                           1907-1910, 1912-1917,
                                                           1959-1964, 4000, 4072-
                                                           4074, 4079-4081, 4096,
                                                           4099-4103, and 4242-
                                                           4246




                                       37
Table 2. (cont’d)

      DCMA Tertiary Site                       Question Number
                                      Answered               Not Applicable
Northrop Grumman (CMO          1911                     1400-1417, 1420, 1421,
Orlando, Florida)                                       1500-1507, 1901, 1905,
                                                        1907-1910, 1912-1917,
                                                        1959-1964, 4000, 4072-
                                                        4074, 4079-4081, 4096,
                                                        4099-4103, and 4242-
                                                        4246
Harris (CMO Orlando, Florida)  1911                     1400-1417, 1420, 1421,
                                                        1500-1507, 1901, 1905,
                                                        1907-1910, 1912-1917,
                                                        1959-1964, 4000, 4072-
                                                        4074, 4079-4081, 4096,
                                                        4099-4103, and 4242-
                                                        4246
Central Pennsylvania Reading   1400-1410, 1412-1415,    1500, 1502-1504, 1506,
(CMO Philadelphia,             1417, 1420, 1421, 1501, 1507, 1900-1910, 1912-
Pennsylvania)                  1505, and 1911           1981, 4000, 4072-4074,
                                                        4079-4081, 4096, 4099-
                                                        4103, and 4242-4246
Central Pennsylvania York (CMO 1911                     1900-1910, 1912-1981,
Philadelphia, Pennsylvania)                             4000, 4072-4074, 4079-
                                                        4081, 4096, 4099-4103,
                                                        and 4242-4246
Honeywell (CMO Springfield,    1911                     1400-1417, 1420, 1421,
New Jersey)                                             1500-1507, 1901, 1905,
                                                        1907-1910, 1912-1917,
                                                        1959-1964, 4000, 4072-
                                                        4074, 4079-4081, 4096,
                                                        4099-4103, and 4242-
                                                        4246




                                      38
Table 2. (cont’d)

      DCMA Tertiary Site                        Question Number
                                      Answered                Not Applicable
BAE Systems Kearfott (CMO      1911                      1400-1417, 1420, 1421,
Springfield, New Jersey)                                 1500-1507, 1901, 1905,
                                                         1907-1910, 1912-1917,
                                                         1959-1964, 4000, 4072-
                                                         4074, 4079-4081, 4096,
                                                         4099-4103, and 4242-
                                                         4246
Virginia–Southern (CMO         1911                      1900-1910, 1912-1982,
Virginia–Northern, Manassas,                             4000, 4072-4074, 4079-
Virginia)                                                4081, 4096, 4099-4103,
                                                         and 4242-4246
Lockheed Martin Dallas (CMO    1911                      1900-1910, 1912-1982,
Dallas, Texas)                                           4000, 4072-4074, 4079-
                                                         4081, 4096, 4099, 4101-
                                                         4103, and 4242-4246
Salt Lake City (CMO Denver,    1400-1417, 1501, 1504,    1500, 1502, 1503, 1506,
Colorado)                      1505, 1911, and 1912      1507, 1900-1910, 1913-
                                                         1982, 4000, 4072-4074,
                                                         4079-4081, 4096, 4099,
                                                         4101-4103, and 4242-
                                                         4246
ATK Thiokol (CMO Denver,       1911                      1900-1910, 1912-1982,
Colorado)                                                4000, 4072-4074, 4079-
                                                         4081, 4096, 4099, 4101-
                                                         4103, and 4242-4246
Boeing Canoga Park (CMO Los    1911                      1905, 1907-1910, 1912-
Angeles, California)                                     1917, 4000, 4072-4074,
                                                         and 4079-4081
Carson (CMO Los Angeles,       1911                      1905, 1907-1910, 1912-
California)                                              1917, 4000, 4072-4074,
                                                         and 4079-4081




                                     39
Table 2. (cont’d)

      DCMA Tertiary Site                          Question Number
                                        Answered                Not Applicable
Oxnard (CMO Los Angeles,         1911                      1905, 1907-1910, 1912-
California)                                                1917, 4000, 4072-4074,
                                                           and 4079-4081
Albuquerque (CMO Phoenix,        1911, 1912, and 1914      1900-1910, 1913, 1915-
Arizona)                                                   1981, 4000, 4072-4074,
                                                           4079-4081, 4096, 4099,
                                                           and 4100
Boeing Mesa (CMO Phoenix,        1911                      1900-1910, 1912-1981,
Arizona)                                                   4000, 4072-4074, 4079-
                                                           4081, 4096, 4099, and
                                                           4100
Kelly (CMO San Antonio, Texas)   1911                      1900-1910, 1912-1982,
                                                           4000, 4072-4074, 4079-
                                                           4081, 4096, 4099, 4101-
                                                           4103, and 4242-4246
NASA Programs (CMO San           1911                      1900-1910, 1912-1982,
Antonio, Texas)                                            4000, 4072-4074, 4079-
                                                           4081, 4096, 4099, 4101-
                                                           4103, and 4242-4246
Irvine (CMO Santa Ana,           1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
California)                      1501, 1505, and 1911      1507, 1905, 1907-1910,
                                                           1912-1917, 4000, 4072-
                                                           4074, and 4079-4081
Northrop Grumman Redondo         1911                      1905, 1907-1910, 1912-
Beach (CMO Santa Ana,                                      1917, 4000, 4072-4074,
California)                                                and 4079-4081
Norwalk (CMO Santa Ana,          1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
California)                      1501, 1505, and 1911      1507, 1905, 1907-1910,
                                                           1912-1917, 4000, 4072-
                                                           4074, and 4079-4081




                                       40
Table 2. (cont’d)

      DCMA Tertiary Site                      Question Number
                                    Answered                Not Applicable
Ontario (CMO Santa Ana,      1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
California)                  1501, 1505, and 1911      1507, 1905, 1907-1910,
                                                       1912-1917, 4000, 4072-
                                                       4074, and 4079-4081
Raytheon (CMO Santa Ana,     1911                      1905, 1907-1910, 1912-
California)                                            1917, 4000, 4072-4074,
                                                       and 4079-4081
Rockwell Cedar Rapids (CMO   1911                      1900-1910, 1912-1981,
Twin Cities, Minneapolis,                              4000, 4072-4074, 4079-
Minnesota)                                             4081, 4096, 4099-4103,
                                                       and 4242-4246
Wichita (CMO Twin Cities,    1400-1417, 1420, 1421,    1500, 1502-1504, 1506,
Minneapolis, Minnesota)      1501, 1505, and 1911      1507, 1900-1910, 1912-
                                                       1981, 4000, 4072-4074,
                                                       4079-4081, 4096, 4099-
                                                       4103, and 4242-4246




                                   41
Appendix D. Prior Coverage
    The following DoD Inspector General site memorandums have been issued
    related to DCMA BRAC 2005 along with the Army Audit Agency audit report
    related to the Army Online Data Collection Tool for BRAC 2005.

DoD Inspector General
    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submissions from
    Defense Contract Management Agency Los Angeles, formerly Van Nuys, to the
    Defense Contract Management Agency Headquarters for Base Realignment and
    Closure 2005,” January 19, 2005

    DoD IG Memorandum, “Audit on the Second Data Call Submissions from the
    Defense Contract Management Agency Santa Ana to the Defense Contract
    Management Agency Headquarters for Base Realignment and Closure 2005,”
    January 6, 2005

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Contract Management Agency Dayton to Defense Contract Management
    Agency Headquarters for Base Realignment and Closure 2005,” December 15,
    2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission From
    Defense Contract Management Agency Virginia Contract Management Office to
    Defense Contract Management Agency Headquarters for Base Realignment and
    Closure 2005,” December 9, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission For Defense
    Contract Management Agency Headquarters for Base Realignment and Closure
    2005,” December 7, 2004

    DoD IG Memorandum, “Audit on the Second Data Call Submission from the
    Defense Contract Management Agency Twin Cities to Defense Contract
    Management Agency Headquarters for Base Realignment and Closure 2005,”
    December 6, 2004




                                    42
DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Contract Management Agency Maryland to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
December 3, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Contract Management Agency Philadelphia to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
November 24, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Phoenix Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 23, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Dallas Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 22, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from Defense
Contract Management Agency Springfield Contract Management Office to the
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 19, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Atlanta Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 18, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Contract Management Agency District West to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
November 18, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from the
Defense Contract Management Agency Indianapolis to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
November 18, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency, Orlando Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 18, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency San Antonio Contract Management
Office to Defense Contract Management Agency Headquarters for Base
Realignment and Closure 2005,” November 18, 2004


                                 43
DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Denver Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 17, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency District International to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
November 17, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency, Huntsville Contract Management Office
to Defense Contract Management Agency Headquarters for Base Realignment
and Closure 2005,” November 17, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Syracuse Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 17, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from Defense
Contract Management Agency Long Island Contract Management Office to the
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 16, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Detroit Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 5, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from Defense
Contract Management Agency Northern California, Contract Management Office,
to the Defense Contract Management Agency Headquarters for Base Realignment
and Closure 2005,” November 5, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission from Defense
Contract Management Agency Boston Contract Management Office to the
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” November 4, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency District East to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
October 27, 2004

DoD IG Memorandum, “Audit on the Second Data Call Submission From
Defense Contract Management Agency Hartford Contract Management Office to
Defense Contract Management Agency Headquarters for Base Realignment and
Closure 2005,” October 27, 2004


                                  44
DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Information Technology Directorate
to the Defense Contract Management Headquarters for Base Realignment and
Closure 2005,” June 14, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Headquarters for Base Realignment
and Closure 2005,” June 2, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Twin Cities to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
June 2, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Indianapolis to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 27, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Maryland to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 27, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Dayton to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 26, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency District International to Defense
Contract Management Agency Headquarters for Base Realignment and Closure
2005,” May 26, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency San Francisco Contract
Management Office to the Defense Contract Management Agency Headquarters
for Base Realignment and Closure 2005,” May 26, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Virginia to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 26, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Long Island to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 20, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Contract Management Agency Van Nuys Contract Management
                                 45
Office to Defense Contract Management Agency Headquarters for Base
Realignment and Closure 2005,” May 20, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency Boston Contract Management
Office to Defense Contract Management Agency Headquarters for Base
Realignment and Closure 2005,” May 19, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Denver to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 19, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Detroit to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 19, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency District East to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency District West to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency Hartford to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Seattle to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Springfield to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Syracuse to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 18, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency, Chicago to the Defense Contract

                                 46
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 11, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency, Phoenix to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 10, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency Huntsville to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 7, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Orlando to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 7, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from the Defense Contract Management Agency San Diego to the Defense
Contract Management Agency Headquarters for Base Realignment and Closure
2005,” May 6, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Santa Ana Contract Management
Office to the Defense Contract Management Agency Headquarters for Base
Realignment and Closure 2005,” May 6, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency Atlanta to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 5, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency Dallas to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 5, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
From Defense Contract Management Agency San Antonio to Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
May 5, 2004

DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
from Defense Contract Management Agency Philadelphia to the Defense Contract
Management Agency Headquarters for Base Realignment and Closure 2005,”
April 29, 2004




                                 47
Army Audit Agency
    Army Audit Agency Memorandum No. A-2004-0184-IMT, “Review of Online
    Data Collection Tool: Process Controls,” February 20, 2004




                                  48
Appendix E. Report Distribution

Office of the Secretary of Defense
           Director, Base Realignment and Closure (Installations and Environment)

           Commander, Defense Contract Management Agency


Non-Defense Federal Organizations
           Government Accountability Office ∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.



                                                    49
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Deborah L. Culp
William J. Kelley
Bobbie S. Wan
Ronald W. Hodges
Lisa M. Such
Pamela S. Varner
Kandy T. Adams
Michael L. Davitt
Gary B. Dutton
Paul M. Gach
Jeffrey A. Kahn
Joseph M. Kaseler
John G. LaBelle
David L. Spargo
Jeffrey C. Brown
Kelly D. Garland
Miwon Kim
Chasy L. Miller
Gwynne M. Roberts
Jeffrey L. Steinbauer
Curtis P. Greene
Justin C. Husar
Angela M. Kendera
Courtney V. Biggs
Phillip M. Faller
Jordan P. Guinto
Michael T. Banach
Robert M. Donahoe
Meredith H. Johnson
